OIG Investigative Reports Press Release Sacramento, CA., 02/11/2013 - Guilty Pleas in Federal Student Financial Aid Fraud Schemes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
FOR IMMEDIATE RELEASE
Monday, February 11, 2013
www.usdoj.gov/usao/cae
Docket #:1:12-cr-265-LJO
1:12-cr-301 AWI
CONTACT: LAUREN HORWOOD
PHONE: 916-554-2706
usacae.edcapress@usdoj.gov
GUILTY PLEAS IN FEDERAL STUDENT FINANCIAL AID FRAUD SCHEMES
SACRAMENTO, Calif. — Two defendants pleaded guilty today in two separate cases of
student loan fraud, U.S. Attorney Wagner announced.
April Lynn Myles 35, of Lancaster, pleaded guilty to wire and mail fraud in a federal
student aid fraud scheme, and Erisheniqua D. Dixon, 20, of Boron, pleaded guilty to
conspiring with other co-defendants to carry out a scheme to fraudulently obtain federal
student financial aid funds.
These cases are the result of the U.S. Department of Education OIG’s criminal
investigations aimed at shutting down Federal student aid “fraud rings” that seek to exploit
federal student aid programs. Assistant U.S. Attorney Grant Rabenn is prosecuting the
Myles case; Assistant U.S. Attorney Kirk Sherriff is prosecuting the Dixon case.
“Scams like these steal money from hardworking taxpayers and legitimate students,
and that is unacceptable,” said Natalie Forbort, Special Agent in Charge of the U.S.
Department of Education Office of Inspector General's Western Regional Office. “OIG is
committed to fighting student financial aid fraud and we will continue to aggressively pursue
those that participate in these types of crimes.”
According to the indictment in the Myles case, from June 2010 to October 2011
Myles recruited individuals to act as straw students and to apply for FSA funds with her
assistance at Bakersfield College and at Santa Barbara Community College. The applicants
were not students and did not intend to attend classes. Myles also applied for FSA funds in
her own name and enrolled herself in courses at Bakersfield College and at Santa Barbara
Community College. She was not eligible to enroll in such courses because she was not a
high school graduate. In addition, Myles obtained identification information from individuals
without their knowledge and used that information to apply for FSA funds. As a result, the
Department of Education lost more than $80,000.
According to court documents in the Dixon case, from April 2008 to March 2012,
Dixon conspired with other co-defendants to obtain federal student aid funds to which they
were not entitled. They fraudulently obtained student aid funds from several community
colleges in Kern County and in Southern California.
Myles is scheduled to be sentenced by United States District Judge Lawrence J.
O’Neill on May 13, 2013. The maximum sentence for mail fraud and wire fraud is 20 years
in prison. Dixon is scheduled to be sentenced by United States District Judge Anthony W.
Ishii on April 22, 2013. The maximum sentence for conspiracy is 5 years in prison. The
actual sentences will be determined at the discretion of the court after consideration of any
applicable statutory sentencing factors and the Federal Sentencing Guidelines, which take
into account a number of variables.
####
Top
Printable view
Last Modified: 02/12/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov